U.S. DEPARTMENT OF COMMERCE
          Office of Inspector General




                 PUBLIC
                RELEASE


       NATIONAL INSTITUTE OF
  STANDARDS AND TECHNOLOGY
            Measurement and Engineering
          Research and Standards Program
         Should Expand Use of Competitive
                        Award Procedures
                        CFDA No. 11.609
      Audit Report No. DEN-10958-0-0001/September 2000




                  Office of Audits, Denver Regional Office
U.S. Department of Commerce                                                                           Report No. DEN-10958-0-0001
Office of Inspector General                                                                                        September 2000




                                                   TABLE OF CONTENTS


EXECUTIVE SUMMARY . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . i

INTRODUCTION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1

PURPOSE AND SCOPE . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 6

FINDINGS AND RECOMMENDATIONS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 8

I.        NIST Developed and Published Appropriate Merit-Based
          Evaluation Criteria for Competitive Sub-Programs . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 9
          A.     Fire Research Grants . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 9
          B.     MSEL Grants . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 9
          C.     Precision Measurement Grants . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 10

II.       Solicitation Procedures and Practices for Precision
          Measurement Grants Met Departmental Requirements . . . . . . . . . . . . . . . . . . . . . . . . . . 11

III.      Solicitation Notices for the Fire Research and
          MSEL Grants Sub-Programs Contained Deficiencies . . . . . . . . . . . . . . . . . . . . . . . . . . . . 11

IV.       Review Procedures Promoted Merit-Based Awards . . . . . . . . . . . . . . . . . . . . . . . . . . . . .                         13
          A.    Fire Research Grants . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .      13
          B.    MSEL Grants . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .   14
          C.    Precision Measurement Grants . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .              14

V.        Selection Practices Supported Merit-Based Decisions,
          But Independence of Process Could Be Improved . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 16

VI.       Award Renewal Procedures for Two Sub-Programs
          Are Calculated to Result in Merit-Based Funding Decisions . . . . . . . . . . . . . . . . . . . . . . 16
          A.     Fire Research Grants . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 16
          B.     Precision Measurement Grants . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 17

VII.      MSEL Grants Renewal Procedures
          May Treat New Proposals Unfairly . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 17
U.S. Department of Commerce                                                                       Report No. DEN-10958-0-0001
Office of Inspector General                                                                                    September 2000



                                       TABLE OF CONTENTS (continued)

VIII.   Majority of Awards Were Noncompetitive,
        Contrary to Departmental Policy . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .     18
        A.     New noncompetitive awards . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .          19
               i.     Competitive procedures were not used . . . . . . . . . . . . . . . . . . . . . . . . . . .                      21
               ii.    Sole source claims were not verified . . . . . . . . . . . . . . . . . . . . . . . . . . . . .                  22
               iii.   Some noncompetitive awards appear to fall within
                      the parameters of a competitive program . . . . . . . . . . . . . . . . . . . . . . . . . .                     23
        B.     Noncompetitive amendments . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .            24

IX.     Recommendations . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 25

                  NIST's Response to the Draft Audit Report . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 26

                  OIG's Comments on NIST's Response . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 28


APPENDIX I - NIST's Complete Response to the Draft Audit Report
  U.S. Department of Commerce                                              Report No. DEN-10958-0-0001
  Office of Inspector General                                                           September 2000



                                      EXECUTIVE SUMMARY

  The Office of Inspector General conducted an audit of fiscal year 1997 criteria, procedures, and
  practices for reviewing and selecting applications for financial assistance under the National
  Institute of Standards and Technology’s Measurement and Engineering Research and Standards
  Program (MERS), classified as No. 11.609 in the Catalog of Federal Domestic Assistance
  (CFDA). The program’s objective, as stated in the CFDA, is “[t]o provide scientific research for
  measurement and engineering research and standards.” Awards made under the program are
  done pursuant to authority set forth at 15 United States Code §272(b)(4), which authorizes the
  Secretary of Commerce, acting through the NIST Director, to enter into contracts, including
  cooperative research and development agreements, in furtherance of NIST’s mission.

  The audit was conducted as part of a Department-wide review of Commerce’s discretionary
  financial assistance programs initiated at the request of the Chairman of the Senate Committee on
  Commerce, Science, and Transportation. Discretionary financial assistance programs are those
  programs for which federal agencies have the authority to independently determine the recipients
  and funding levels of awards. These programs involve a significant portion of the Commerce
  Department’s budget and operations, approximately $1 billion annually.

  In fiscal year 1997, NIST made several different types of awards under CFDA No. 11.609,
  including one legislatively-mandated award and several competitive awards under three
  individual competitive sub-programs. However, the majority of the awards under CFDA No.
  11.609 involved a series of grants and cooperative agreements that, contrary to federal guidelines
  and Departmental requirements, were made noncompetitively on a sole source basis without
  appropriate justification.

  NIST processed 172 financial assistance awards under CFDA No.11.609 in fiscal year 1997. We
  found that only 46 awards, totaling $2.8 million, were awarded competitively. The competitive
  awards included 12 new awards ($731,000) and 34 renewals of existing competitive awards ($2.1
  million). One award, totaling $6.5 million, was legislatively mandated. The remaining 125
  awards were made noncompetitively on a sole-source basis. Total federal funds committed by
  the 125 sole-source awards and amendments were approximately $17.6 million. Of these actions,
  66 were new awards ($8.1 million) and 59 were renewals or amendments to existing sole-source
  awards ($9.5 million). The following chart summarizes the types of awards, including whether
  new or renewal, and the relative dollar values for fiscal year 1997.

                                        $ Value                    $ Value       Total       $ Value
     Award Type            New       (In Millions)   Renewal    (In Millions)   Awards    (In Millions)
Legislatively-Mandated           -               -         1              6.5         1             6.5
Competitive                     12              .7         34             2.1       46              2.8
Non-Competitive                 66             8.1         59             9.5      125            17.6
         Totals                 78             8.8         94           18.1       172            26.9


                                                     -i-
U.S. Department of Commerce                                            Report No. DEN-10958-0-0001
Office of Inspector General                                                         September 2000



We found that the competitive awards were made under three separate award sub-programs that
NIST grouped under CFDA No. 11.609: the Fire Research Grants program 1, the Materials
Science and Engineering Laboratory (MSEL) Grants program, and the Precision Measurement
Grants program. Each of these sub-programs developed its own procedures for soliciting and
reviewing applications and for selecting applicants for funding. We found that, for each of these
sub-programs, NIST has established and followed procedures which are calculated to result in
merit-based funding decisions and which, except for some deficiencies, comply with the
Department’s current minimum requirements for financial assistance awards.

Specifically, our audit disclosed that under the three sub-programs NIST:

l      Developed and published merit-based criteria, consistent with the objectives of each sub-
       program, for use in evaluating applications for funding, as required by Section 4.02a of
       DAO 203-26 for all three sub-programs (see page 9).

l      Published a solicitation notice for Precision Measurement Grants that complied with, or
       exceeded, all departmental requirements, as established by DAO 203-26, Section 4.02b,
       and Financial Assistance Notice No. 17, Section .03 (see page 11).

l      Followed established procedures in reviewing applications under the three sub-programs,
       as detailed in their solicitation notices, and included a number of outside experts on their
       proposal evaluation panels for two sub-programs — Fire Research Grants and Precision
       Measurement Grants — as required by DAO 203-26, Section 4.02h.1 (See page 13).

l      Followed established procedures in making selections of recipients under all three sub-
       programs, as required by OMB Circular No. A-123 (see page 16).

l      Followed established procedures for renewing prior awards under the Fire Research
       Grants and Precision Measurement Grants programs (see page 16).

At the same time, we identified opportunities for improving these sub-programs’ procedures and
practices. Our audit disclosed that NIST:

l      Identified both grants and cooperative agreements as funding instruments in the
       solicitation notices for the Fire Research Grants and MSEL Grants programs, which
       conflicts with Section .03b.7(f) of Financial Assistance Notice No. 17, which requires that
       only one type of funding instrument be identified. As a result, prospective applicants



       1
       In addition to the authority set forth at 15 U.S.C. §272(b)(4), awards made under the Fire
Research Grants sub-program are done pursuant to authority set forth in 15 U.S.C. §278f.

                                                -ii-
U.S. Department of Commerce                                            Report No. DEN-10958-0-0001
Office of Inspector General                                                         September 2000



       were not informed of the level of federal involvement that NIST anticipated in awards
       under these two sub-programs (see page 11).

l      Published confusing information in the solicitation notice for the MSEL Grants program
       by stating in the notice that funding would only be provided for one year, while accepting
       proposals for, and providing funding to, multi-year projects. We found that NIST
       subsequently corrected this issue in the fiscal year 1999 solicitation notice for the MSEL
       Grants program (see page 11).

l      Allowed the selecting official for the Precision Measurement Grants program to
       participate on proposal review panels. We believe that the independence and objectivity
       of the application review and selection processes are lessened when the selecting official
       has the ability to influence the proposal review results by acting as a reviewer. In
       addition, NIST could enhance the independence and objectivity of future MSEL grants
       competitions by inviting reviewers from outside NIST and the Department to participate
       on the proposal evaluation panels (see page 14).

l      Provided an unfair advantage to certain MSEL grant renewal applicants, contrary to the
       requirement that all applications be treated fairly, as stated in DAO 203-26, Section
       4.02h.1(b). We are concerned that recipients who have completed their initial research
       period and are seeking additional funds receive an unfair advantage over new applicants
       because NIST’s MSEL renewal procedures do not distinguish between continuation of
       multi-year research projects and projects for which the original research period has ended,
       but further funding is requested. As a result, existing projects seeking additional funding
       beyond their originally-proposed research period do not have to compete against new
       proposals for funding providing existing projects an unfair advantage. (see page 17).

The three competitive sub-programs, however, are only a small portion of the overall program.
The majority of awards under CFDA No. 11.609 were awarded noncompetitively, on the basis
that the proposed recipients were the only responsible sources to perform the research. We
found that, although NIST’s procedures governing the issuance of sole-source awards require a
determination that the proposed recipient is the only responsible source that could accomplish
the work and no other property or services would satisfy the government’s needs, written
justifications for the sole source awards did not cite any factual basis, such as the results of
published solicitation notices, for NIST’s assertions that the proposed award recipients were the
only organizations that could perform the research described in the proposals. In addition,
NIST’s Grants Office did not take adequate steps to verify these determinations. NIST extensive
use of sole-source awards appears to conflict with departmental policy, including Section 4.02h
of DAO 203-26, and the Federal Grant and Cooperative Agreement Act (31 U.S.C. §6301, et
seq.), which includes a stated purpose to encourage competition in awarding federal financial
assistance (see page 18).


                                               -iii-
U.S. Department of Commerce                                            Report No. DEN-10958-0-0001
Office of Inspector General                                                         September 2000



We also found that certain sole-source awards issued by MSEL did not comply with Section
4.02i of DAO 203-26, which states that awards made as a result of an unsolicited proposal can
only be made noncompetitively if the project falls outside the program goals of a competitive
program (see page 23).

Finally, NIST does not have written procedures for renewing existing sole-source awards. As a
result, a project’s worthiness of continued funding was not determined. We believe that the
agency should establish minimum standards to guide technical personnel in assessing whether
sole-source awards should be renewed and, if renewal is warranted, if it should be done on a
noncompetitive basis. These standards will help bring consistency to NIST’s sole-source award
renewals and provide a means for it to document that the renewals are merit-based and
appropriate (see page 24).

We recommend that the Director, NIST, ensure that the agency:

1.     Complies with the minimum departmental requirements, as stated in Financial
       Assistance Notice No. 17, Section .03b.7(f), for Fire Research Grants and MSEL
       Grants program solicitation notices by identifying only one type of proposed
       funding instrument in the notices.

2.     Notifies applicants for MSEL grants that proposals for multi-year projects will be
       accepted and evaluated, with funding beyond one year at NIST’s discretion,
       subject to satisfactory performance, continued research needs, and availability of
       funds.

3.     Enhances the independence of future MSEL Grants application reviews by
       ensuring that at least one proposal review panel member is outside the supervisory
       chain of the selecting official and that participants from outside NIST and the
       Department are invited to serve as proposal reviewers.

4.     Revises the selection procedures to preclude the selecting official from
       participating on proposal review panels.

5.     Provides fair treatment to all MSEL Grants applicants by requiring grantees that
       are seeking additional funding beyond their originally-proposed research period to
       compete for funding with all new MSEL Grants program applications.

6.     Utilizes competitive review procedures for discretionary financial assistance
       awards, to the maximum extent possible, in accordance with Section 4.02h of
       DAO 203-26.

7.     Publicly announces in the Federal Register its intention to make each sole-source
       award, requests proposals from interested parties, evaluates any applications
       submitted, and makes a final selection in accordance with DAO 203-26, Section
       4.02h.

                                               -iv-
U.S. Department of Commerce                                            Report No. DEN-10958-0-0001
Office of Inspector General                                                         September 2000



8.     Ensures that NIST Grants Office reviews of proposed sole-source awards include
       procedures designed to objectively determine compliance with Department and
       NIST competitive requirements.

9.     Closely examines proposed funding of unsolicited proposals to ensure that they
       do not fall within the program goals of any existing or planned competitive
       program, as required by Section 4.02i of DAO-203-26.

10.    Develops minimum standards to guide technical personnel in reviewing requests
       for renewal of sole-source awards and, if renewal is warranted, if it should be done
       on a noncompetitive basis.

                                             ------

In response to the draft audit report, NIST agreed to implement seven of the ten
recommendations contained in the draft audit report. NIST did not agree with the other three
recommendations: (1) ensure that Federal Register notices for the Fire Research Grants and
MSEL Grants programs identify only type of proposed funding instrument; (2) ensure that at
least one proposal review panel member is outside the supervisory chain of command of the
selecting official for future MSEL Grants competitions; and (3) publicly announce proposed sole-
source awards in the Federal Register, request proposals from interested parties, evaluate any
applications submitted, and make a final selection in accordance with DAO 203-26, Section
4.02h. A summary of NIST's response begins on page 26 and the report is included in its
entirety in Appendix I.

After reviewing NIST's response to the draft audit report, including the bases for its objections
to the three recommendations cited above, we believe the conditions and causes underlying
these recommendations remain valid. Therefore, we reaffirm our draft audit report
recommendations. Our detailed comments on NIST's responses to the draft audit report begin
on page 28.




                                                -v-
  U.S. Department of Commerce                                              Report No. DEN-10958-0-0001
  Office of Inspector General                                                           September 2000



                                           INTRODUCTION

  The National Institute of Standards and Technology’s primary mission is to promote U.S.
  economic growth by working with industry to develop and apply technology, measurements, and
  standards. To accomplish a portion of its mission, NIST administers the Measurement and
  Engineering Research and Standards Program (MERS) , classified as No. 11.609 in the Catalog
  of Federal Domestic Assistance (CFDA). The program’s objective, as stated in the CFDA, is
  “[t]o provide scientific research for measurement and engineering research and standards.”
  Awards made under the program are done pursuant to authority set forth at 15 United States
  Code §272(b)(4), which authorizes the Secretary of Commerce, acting through the NIST
  Director, to enter into contracts, including cooperative research and development agreements, in
  furtherance of NIST’s mission.

  In fiscal year 1997, NIST made several different types of awards under CFDA No. 11.609,
  including one legislatively-mandated award and several competitive awards under three
  individual competitive sub-programs. However, the majority of the awards under CFDA No.
  11.609 involved a series of grants and cooperative agreements made noncompetitively on a sole-
  source basis.

  NIST processed 172 financial assistance awards under CFDA No.11.609 in fiscal year 1997. We
  found that only 46 awards, totaling $2.8 million, were awarded competitively. The competitive
  awards included 12 new awards ($731,000) and 34 renewals of existing competitive awards ($2.1
  million). One awarded, totaling $6.5 million, was legislatively mandated. The remaining 125
  awards were made noncompetitively on a sole-source basis. Total federal funds committed by
  the 125 sole-source awards and amendments were approximately $17.6 million. Of these actions,
  66 were new awards ($8.1 million) and 59 were renewals or amendments to existing sole-source
  awards ($9.5 million). The following chart summarizes the types of awards, including whether
  new or renewal, and the relative dollar values for fiscal year 1997.

                                        $ Value                    $ Value       Total       $ Value
     Award Type            New       (In Millions)   Renewal    (In Millions)   Awards    (In Millions)
Legislatively-Mandated           -               -         1              6.5         1             6.5
Competitive                     12              .7         34             2.1       46              2.8
Non-Competitive                 66             8.1         59             9.5      125            17.6
         Totals                 78             8.8         94           18.1       172            26.9




                                                     -1-
U.S. Department of Commerce                                            Report No. DEN-10958-0-0001
Office of Inspector General                                                         September 2000



We found that the competitive awards were made under three separate award sub-programs that
NIST grouped under CFDA No. 11.609: the Fire Research Grants program 1, the Materials
Science and Engineering Laboratory (MSEL) Grants program, and the Precision Measurement
Grants program. Each of these sub-programs developed its own procedures for soliciting and
reviewing applications and for selecting applicants for funding.

The Fire Research Grants program, with technical oversight by NIST’s Building and Fire
Research Laboratory, provides research funds in the areas of fire modeling and applications, large
fire research, advanced fire measurements, materials fire research, and fire sensing and
extinguishment. Eligible recipients include academic institutions, non-federal agencies, and
independent and industrial laboratories and research organizations. NIST awarded six new Fire
Research grants, for a total of $353,223, during fiscal year 1997. NIST also issued 12 renewals
under the program, totaling $866,887.

The MSEL Grants program provides financial assistance for innovative research proposals on
topics of interest to the laboratory’s divisions — namely ceramics, polymers, metallurgy, and
reactor radiation. Academic institutions, non-federal agencies, and independent and industrial
laboratories are eligible to receive awards. NIST issued four new MSEL grants in fiscal year
1997, involving $277,663 in federal funds. NIST also issued 18 MSEL grants renewals, totaling
$1,019,307.

The Precision Measurement Grants program provides financial assistance to encourage
measurement-related research in U.S. universities and colleges and to foster contacts between
NIST scientists and faculty members of U.S. academic institutions who are actively engaged in
such work. Precision Measurement grants are also intended to assist faculty in pursuing new,
fundamental measurement ideas for which other sources of support may be difficult to find.
NIST has awarded Precision Measurement grants since 1970. Only U.S. universities and colleges
are eligible to apply for these grants. In fiscal year 1997, NIST awarded two new Precision
Measurement Grants, totaling $100,000, and four award renewals, totaling $200,000 in federal
funds.

During fiscal year 1997, NIST issued 125 noncompetitive financial assistance awards and
amendments, involving about $17.6 million in federal funding. This represented 73.1 percent of
the discretionary award actions, and 86.3 percent of discretionary funding under the MERS
program. Of the 125 noncompetitive actions, 66 were new awards, involving approximately
$8.1 million in federal funds, including 3 awards of more than $1 million each. The remaining 59
noncompetitive actions were renewals or amendments to existing noncompetitive awards,
totaling $9.5 million in federal funding.

Discretionary financial assistance programs are those for which federal agency officials have the
authority to decide (1) which eligible applicants will receive awards, and (2) how much will be


       1
       In addition to the authority set forth at 15 U.S.C. §272(b)(4), awards made under the Fire
Research Grants sub-program are done pursuant to authority set forth in 15 U.S.C. §278f.

                                               -2-
U.S. Department of Commerce                                             Report No. DEN-10958-0-0001
Office of Inspector General                                                          September 2000



awarded. The use of competitive selection procedures is generally agreed to be the most effective
method of ensuring that financial assistance awards are made on the basis of merit. One of the
primary purposes of the Federal Grant and Cooperative Agreement Act (31 U.S.C. §6301 et seq)
is to encourage competition in the award of federal financial assistance to the maximum extent
practicable in order to fairly and objectively identify and fund, based on merit, the best possible
projects proposed by applicants, and thereby more effectively achieve program objectives.

The Office of Management and Budget (OMB) has issued guidelines on administering
competition-based financial assistance programs for use by federal agencies. An interagency
study group, convened in 1979 by OMB to examine competition in financial assistance programs,
determined that financial assistance award processes, to ensure effective competition, should
include three basic elements. These elements, which were discussed in OMB’s June 1980 report,
Managing Federal Assistance in the 1980s, and are still applicable, include:

l      Widespread solicitation of eligible applicants and disclosure of essential application and
       program information in written solicitations;

l      Independent application reviews that consistently apply written program review criteria;
       and

l      Written justifications for award decisions that deviate from recommendations made by
       application reviewers.

Also, OMB has issued the following circulars that set forth the policies and procedures to be
followed in administering federal financial assistance programs:

l      OMB Circular A-89, Federal Domestic Program Information, implements the Federal
       Program Information Act (P.L. 95-220) requiring agencies to systematically and
       periodically collect and distribute current information to the public on federal domestic
       assistance programs, which is accomplished through the semiannual publication of the
       Catalog of Federal Domestic Assistance.

l      OMB Circular A-102, Grants and Cooperative Agreements with State and Local
       Governments, requires agencies to provide the public with advance notice in the Federal
       Register, or by other appropriate means, of their intended funding priorities for
       discretionary assistance programs unless such priorities are established by federal statute.
       Under A-102, when time permits, an agency must provide the public with an opportunity
       to comment on funding priorities. Finally, A-102 requires all grant awards over $25,000
       to be reviewed for consistency with agency priorities by a policy level official.




                                                -3-
U.S. Department of Commerce                                              Report No. DEN-10958-0-0001
Office of Inspector General                                                           September 2000



l      OMB Circular A-110, Uniform Administrative Requirements for Grants and
       Cooperative Agreements with Institutions of Higher Education, Hospitals, and Other
       Non-Profit Organizations, requires agencies to provide the public with advance notice of
       their intended funding priorities for discretionary assistance programs unless such
       priorities are established by federal statute.

l      OMB Circular A-123, Management Accountability and Control, implements the Federal
       Managers’ Financial Integrity Act (P.L. 97-255), requiring agencies to establish
       management controls for federal programs and operations, including financial assistance
       programs, that provide reasonable assurance that activities are effectively and efficiently
       managed to achieve agency goals.

Commerce has relied on these guidelines and circulars in developing and issuing policies and
procedures for its discretionary funding programs. Department Administrative Order (DAO)
203-26, Department of Commerce Grants Administration, requires that (1) all Commerce
financial assistance awards be made on the basis of competitive reviews unless a special waiver is
obtained, (2) competitive review processes meet minimum standards outlined in the DAO, and
(3) all Commerce agencies publish, at least annually, a notice in the Federal Register announcing
the availability of funding, soliciting award applications, and specifying the criteria and process to
be used in reviewing and selecting applications for funding.

The following chart depicts the basic process and controls for the solicitation, review, and
selection of financial assistance awards as set forth in DAO 203-26.




                                                 -4-
U.S. Department of Commerce                                                                                                                               Report No. DEN-10958-0-0001
Office of Inspector General                                                                                                                                            September 2000




                                            Department of Commerce Financial Assistance Awards Process
  Congress




                                     LEGISLATIVE AUTHORITY &
                                     APPROPRIATIONS REQUIREMENTS




                                                                                                                                   PREAWARD SCREENING
   Department




                                                                                                                                   * Office of General Counsel Review       FINANCIAL
                                     POLICIES &
                                                                                                                                                                            ASSISTANCE
                                     PROCEDURES                                                                                    * Office of Inspector General Review     REVIEW BOARD
                                                                                                                                     -- Limited Background Check
                                                                                                                                     -- Credit Review
                                                                                                                                     -- Outstanding Audit Issues




                                                         SOLICITATION
                                                                                REVIEW
   Bureau/Program




                                                                                                        SELECTION                              PREAWARD SCREENING
                                      POLICIES &         Public announcement
                                      PROCEDURES         and notification of    * Independent Review                                           * Outstanding Accounts
                                                                                                        *   Quantitative Scores                                             SIGNED BY GRANT
                                                         financial assistance      Panel(s)             *   Public Policy Considerations         Receivable                 OFFICER
                                                         opportunities (e.g.,   * Evaluation Criteria   *   Recommend Action                   * Suspensions & Debarments   OR DESIGNATED
                                                         Federal Register,      * Numeric Ranking       *   Decision Fully Justified and       * Award Prepared Properly    OFFICIAL
                                                         Commerce Business                                  Documented
                                                         Daily, Internet Web
                                                         Sites)
   Financial Assistance Applicants




                                                                                                                                                                               AWARD
                                                         PROPOSAL




                                                                                                            -5-
U.S. Department of Commerce                                              Report No. DEN-10958-0-0001
Office of Inspector General                                                           September 2000



                                    PURPOSE AND SCOPE

This audit was conducted as part of a comprehensive review of the Department of Commerce’s
discretionary funding programs initiated at the request of the Chairman of the Senate Committee
on Commerce, Science, and Transportation. The Chairman requested that the Inspectors General
of the Departments of Commerce and Transportation, and the National Science Foundation
review the discretionary funding programs of their respective agencies to assess the manner in
which discretionary funding decisions are made. More specifically, the Chairman requested that
each IG review and report on the criteria developed, either statutorily or administratively, to guide
agency officials in making discretionary spending decisions, and on the extent to which the
criteria are appropriately applied.

We conducted our Department-wide review in two phases: a survey phase and an individual
program audit phase. During the survey phase, we identified and examined the body of laws,
regulations, and other guidance applicable to the administration of federal financial assistance
programs. We also examined the authorizing legislation for each Commerce financial assistance
program and classified each as either a “full discretion” program or a “limited discretion”
program, based on the extent to which the legislation limits the agency’s authority to
independently determine the recipients and funding levels of the awards made under the
program. Finally, we examined fiscal year 1997 appropriations legislation to identify any
legislatively mandated projects.

During the second phase of our review, we conducted individual audits of the award solicitation,
review, and selection processes of each program we have classified as a “full discretion” program,
including NIST’s Measurement and Engineering Research and Standards program. We
evaluated the adequacy of each program’s established award criteria and procedures for
evaluating individual applications. For those programs with procedures deemed to be adequate,
we ascertained whether they were followed in making awards in fiscal year 1997. For those
programs with procedures considered to be inadequate or lacking, we determined how fiscal year
1997 award decisions were made. Finally, we examined the legislatively-mandated projects
identified for each program and determined their significance and impact on fiscal year 1997
award decisions. We will issue individual reports, with any appropriate recommendations on
each program, followed by a capping report summarizing the results of the individual audits and
providing recommendations for the Department and/or its bureaus.

On July 21, 1998, the Acting Inspector General and the Chief Financial Officer and Assistant
Secretary for Administration testified before the Senate Commerce, Science, and Transportation
Committee on the Department’s discretionary funding programs. The Acting IG reported on the
status of the survey phase of the OIG’s review, and discussed some of the preliminary
observations from the individual program audits.




                                                 -6-
U.S. Department of Commerce                                             Report No. DEN-10958-0-0001
Office of Inspector General                                                          September 2000



This performance audit covered all awards processed by NIST during fiscal year 1997 under the
Measurement and Engineering Research and Standards program, with the exception of one
legislatively-mandated award. Specifically, we:

l      Reviewed the authorizing legislation, information summarized in the CFDA, and Federal
       Register notices to identify criteria for funding decisions.

l      Reviewed Department and NIST policies and procedures for soliciting, reviewing, and
       selecting recipients for awards. We reviewed NIST’s solicitation, review, and selection
       processes and assessed whether they were in accordance with DAO 203-26, Department
       of Commerce Grants Administration, and Office of Federal Assistance Financial
       Assistance Notice No. 17, Department of Commerce Guidelines for the Preparation of
       Federal Register Notices Announcing the Availability of Financial Assistance
       Funds—Requests for Applications.

l      Compared NIST’s practices for the fiscal year 1997 award actions with the prescribed
       procedures to determine if the processes contained adequate internal controls to provide
       for competitive, merit-based awards.

l      Interviewed officials in the various program offices concerning NIST’s solicitation,
       review, and selection procedures.

We did not examine NIST’s procedures for a cooperative agreement with the U.S.-Israel Science
and Technology Commission because the award to this recipient was legislatively mandated.
Public Law 104-208, which provided fiscal year 1997 appropriations for the Department of
Commerce, directed funding to the Commission.

We did not rely on computer-based data supplied by NIST and the Department’s Office of
Executive Assistance Management as a basis for our audit findings and recommendations. We
therefore, did not conduct tests of the reliability of the data or the controls over the computer-
based systems that produced the data.

We completed our audit fieldwork in August 1998 at NIST’s Measurement and Standards
Laboratories and Grants Office, in Gaithersburg, Maryland. We conducted the audit in
accordance with generally accepted government auditing standards and under the authority of the
Inspector General Act of 1978, as amended, and Department Organization Order 10-13, dated
May 22, 1980, as amended.




                                                -7-
U.S. Department of Commerce                                             Report No. DEN-10958-0-0001
Office of Inspector General                                                          September 2000



                              FINDINGS AND RECOMMENDATIONS

We found that NIST developed and published merit-based criteria and procedures for soliciting,
reviewing, and selecting applications for FY 1997 awards for the three competitive sub-programs
under CFDA No. 11.609. NIST’s procedures and practices for the solicitation, review, and
selection of competitive award recipients generally complied with applicable statutory,
departmental, and NIST requirements, although we found room for improvement as discussed
below. In addition, we found that NIST did not have adequate procedures to ensure that renewal
decisions for certain MSEL grants were merit-based, but did have adequate procedures for
renewals of Fire Research Grants and Precision Measurement Grants program awards in fiscal
year 1997 and they were properly followed.

We also found several opportunities for improving NIST’s competitive award procedures and
practices for its three sub-programs. Specifically, two of the three competitive solicitation
notices, as published in the Federal Register, failed to comply with one of the requirements for
such notices, as established by Financial Assistance Notice No. 17. We also believe that the
independence and objectivity of future MSEL grants competitions could be enhanced by inviting
reviewers from outside NIST and the Department to participate in the review process. In
addition, NIST needs to revise the application selection procedures for the Precision
Measurement Grants program to prevent the selecting official from participating on proposal
review panels.

We found that 125 of the 172 fiscal year 1997 awards under CFDA No. 11.609 were made
noncompetitively, on a sole-source basis. We are concerned by the large number of sole-source
justifications for noncompetitive awards. NIST’s extensive use of sole-source awards appears to
conflict with departmental policy, including Section 4.02h of DAO 203-26, and the Federal Grant
and Cooperative Agreements Act (31 U.S.C. §6301, et seq.), which includes a stated purpose to
encourage competition in awarding federal financial assistance.

We found that, although NIST’s procedures governing the issuance of sole-source awards require
a determination that the proposed recipient is the only responsible source that could accomplish
the work and no other property or services would satisfy the government’s needs, NIST’s Grants
Office did not take adequate steps to verify these determinations. In order to ensure that its sole-
source justifications are appropriate, NIST should, at a minimum, publicly announce its intention
to make each sole-source award, request proposals from parties interested in the same area of
research as the proposed sole-source award, and then evaluate all proposals received and make a
final selection in accordance with the requirements of DAO 203-26, Section 4.02h. If no
proposals are submitted in response to the public notice, NIST should then review the sole-
source proposal in accordance with the independent review procedures established by DAO
203-26, which include the requirement that each proposal be reviewed by a minimum of three
independent reviewers.

We also found that certain sole-source awards issued by MSEL violated Section 4.02i of DAO
203-26, which states the Department’s prohibition against making awards based on an unsolicited
proposal if the project falls within the program goals of a competitive program.

                                                -8-
U.S. Department of Commerce                                             Report No. DEN-10958-0-0001
Office of Inspector General                                                          September 2000



Finally, NIST does not have written procedures for renewing existing sole-source awards. We
believe that the agency should establish minimum standards to guide technical personnel in
assessing whether sole-source awards should be renewed and, if renewal is warranted, if it should
be done on a noncompetitive basis. These standards will help bring consistency to NIST’s sole-
source award renewals and provide a means for it to document that the renewals are merit-based
and appropriate.

I.     NIST Developed and Published Appropriate Merit-Based
       Evaluation Criteria for Competitive “Sub-Programs”

NIST developed and published merit-based criteria, which were consistent with the objectives of
each of the three competitive sub-programs, to evaluate applications. Specific evaluation criteria
for each sub-program are discussed in the following sections.

A.     Fire Research Grants

NIST published a “Notice of Availability of Funds” for the Fire Research grants competition in
the Federal Register on January 23, 1997. The Federal Register notice listed the proposal
evaluation and scoring criteria. Each proposal would be assigned a numerical score up to 100
points, based on the following criteria, weighted as indicated.

a.     Technical quality of the research                     0 - 35 points
b.     Potential impact of the results                       0 - 25 points
c.     Staff and institution capability                      0 - 20 points
       to do the work
d.     Match of budget to proposed work                      0 - 20 points

       Total
       0 - 100 points

We believe that the Fire Research grants proposal evaluation criteria were designed to result in
merit-based awards.

B.     MSEL Grants

NIST published a “Notice of Availability of Funds” for the MSEL grants competition in the
Federal Register on April 17, 1996. The Federal Register notice listed the proposal evaluation
and scoring criteria. Each proposal would be assigned a score up to 100 points, based on the
following four equally-weighted criteria.

a.     Rationality                                           0 - 25 points
       i.   Coherence of approach
       ii. Relation to scientific/technical issues


                                                -9-
U.S. Department of Commerce                                             Report No. DEN-10958-0-0001
Office of Inspector General                                                          September 2000



b.     Qualifications of technical personnel                 0 - 25 points
c.     Resources availability                                0 - 25 points
d.     Technical merit of contribution                       0 - 25 points

       Total
       0 - 100 points

We believe that the MSEL grants proposal evaluation criteria were designed to result in merit-
based awards.

C.     Precision Measurement Grants

NIST published a “Notice of Availability of Funds” for the Precision Measurement grants
competition in the Federal Register on October 29, 1996. The Federal Register notice listed the
proposal evaluation and scoring criteria. The Precision Measurement Grants program uses a two-
step evaluation process, in which applicants first submit an abbreviated proposal that summarizes
the proposed project. NIST then selects a small number of semifinalists who are requested to
submit full proposals for examination. Each abbreviated and full proposal would be evaluated
according to the following four equally-weighted criteria.

a.     Importance of the proposed research to science—does it have the potential of answering
       some currently pressing question or of opening up a whole new area of activity?

b.     The relationship of the proposed research to measurement science—is there a possibility
       that it will lead to a new or improved fundamental measurement method or to a better
       understanding of important, but already existing, measurement methods or physical
       standards?

c.     The feasibility of the research—is it likely that significant progress can be made in a three
       year time period with the funds and personnel available?

d.     The past accomplishments of the applicant—is the quality of the research previously
       carried out by the prospective grantee such that there is a high probability that the
       proposed research will be successfully carried out?

We believe that the Precision Measurement grants proposal evaluation criteria were designed to
result in merit-based awards.




                                                -10-
U.S. Department of Commerce                                              Report No. DEN-10958-0-0001
Office of Inspector General                                                           September 2000



II.    Solicitation Procedures and Practices for Precision
       Measurement Grants Met Departmental Requirements

We found that the Precision Measurement Grants program notice complied with, or exceeded, all
departmental requirements. In addition to publishing the required notice in the Federal Register,
the program also published a notice of availability of funds in a national magazine — Physics
Today — and sent brochures announcing the availability of funds to college and university
physics departments across the country. We commend the Precision Measurements Grants
program on its efforts to broadly advertise the competitive program.

III.   Solicitation Notices for the Fire Research and
       MSEL Grants Sub-Programs Contained Deficiencies

We examined each of the Federal Register “Notices of Availability of Funds” for the three
competitive sub-programs under CFDA No. 11.609 to determine whether they complied with
requirements established by DAO 203-26, Section 4.02b, and Financial Assistance Notice No. 17,
Section .03. Section 4.02b of DAO 203-26 requires publication of a notice in the Federal
Register, at least annually, to inform the interested public of each discretionary financial
assistance program. At a minimum, the DAO requires the following information in each notice:

l      Statutory authority, the amount and availability of funds, and the purposes for which the
       funds may be spent;

l      Type of funding instrument planned to be used;

l      Applicant eligibility criteria;

l      Application and/or preapplication due date(s) or closing date(s), if any;

l      Contact person’s address and phone number;

l      The selection process or procedure;

l      Selection criteria and the weight, if applicable, assigned to each criterion;

l      Funding priorities, if any;

l      Recipient matching requirements, if any;

l      Anticipated processing time;

l      Maximum project period for which assistance is available;


                                                -11-
U.S. Department of Commerce                                            Report No. DEN-10958-0-0001
Office of Inspector General                                                         September 2000



l      Notification that recipients or applicants who have an outstanding account receivable with
       the Department will not receive a new award until the debt is paid or arrangements
       satisfactory to the Department are made;

l      CFDA number(s) and title(s); and

l      Applicability of Executive Order 12372, “Intergovernmental Review of Federal
       Programs.”

Financial Assistance Notice No. 17 establishes the process to be used in preparing Federal
Register notices announcing availability of financial assistance funds. Section .03 of the
Financial Assistance notice describes specific format and content requirements. Section .03(f) of
the Financial Assistance Notice states, “Only one type of funding instrument should be identified
in the (Federal Register) notice.”

We found that the solicitation notices for the Fire Research Grants and MSEL Grants programs
identified two types of funding instruments, contrary to the requirements in Financial Assistance
Notice No. 17. The Federal Register notice for the Fire Research Grants sub-program, published
January 23, 1997, does not contain a specific section describing the type of funding instrument
intended, but does mention both grants and cooperative agreements under the caption
“Supplementary Information.” The MSEL grants notice, published in the Federal Register on
April 17, 1996, states, under the caption “Type of Funding Instrument,” that grants and
cooperative agreements will be awarded. Both programs have historically awarded both grants
and cooperative agreements.

The requirement that only one type of proposed funding instrument be mentioned in Federal
Register notices is designed to assist applicants in preparing proposals by indicating the
anticipated level of government involvement in the project. If the government desires to award
cooperative agreements, which involve substantial federal involvement in the funded project,
then the agency should so advise applicants, thereby soliciting proposals that provide for federal
involvement. “Grants,” on the other hand, do not require substantial involvement by the
government and grant proposals should be prepared with minimal federal involvement in the
research.

Although NIST was in violation of the DAO and Financial Assistance Notice by mentioning two
types of funding instruments, we found no evidence that the violation had any impact on the
selection of recipients. However, to avoid future violations of departmental requirements, NIST
should restrict future solicitations to one type of funding instrument — either grants or
cooperative agreements.

We commend NIST on its decision to quickly correct a deficiency concerning proposed award
periods that appeared in the Federal Register notice for the MSEL Grants program. Specifically,
we found that the Federal Register notice, published April 17, 1996, stated that proposals
selected for funding would receive financial assistance for a one-year period. However, NIST

                                               -12-
U.S. Department of Commerce                                               Report No. DEN-10958-0-0001
Office of Inspector General                                                            September 2000



regularly accepted multi-year proposals, and selected multi-year projects for funding. Our
concern is that applicants whose proposed projects involve more than one year’s research may
be discouraged from submitting proposals based on the one year limitation contained in the
Federal Register notice, even though NIST would have considered their proposals if they had
been submitted.

We discussed our concern regarding multi-year proposals with MSEL staff. An MSEL official
pointed out that the fiscal year 1999 Federal Register notice for the MSEL Grants program,
published November 19, 1998, advised applicants that NIST would accept and evaluate multi-
year proposals. NIST should incorporate similar language into future MSEL Grants program
solicitation notices. We believe that the notices should also state that, if a multi-year proposal is
selected to receive funding, only the first year’s funding will be provided, with subsequent
funding at NIST’s discretion, subject to a determination of satisfactory performance, continued
need for the research, and availability of funding.

IV.    Review Procedures Promoted Merit-Based Awards

Each of the three competitive sub-programs developed its own proposal review procedures and
published them in the Federal Register. Each review process was designed to lead to merit-
based selection of award recipients. We found that the Fire Research Grants and Precision
Measurement Grants programs included a number of outside experts on their proposal review
panels. We believe that the independence and objectivity of future MSEL grants competitions
could be enhanced by ensuring that at least one review panel member is outside the supervisory
chain of the selecting official and following the lead of the other two competitive programs by
inviting experts from outside NIST and the Department to participate.

A.     Fire Research Grants

NIST received 13 new proposals, requesting a total of $789,217 in federal funds, in response to
the Fire Research grants solicitation notice, which was published in the Federal Register on
January 23, 1997. In addition, four Fire Research grants renewal requests were required to
compete for funding with the 13 new proposals (see Section VII.A). The proposal review process
for the program, as described in the Federal Register, included the following phases:

l      Each proposal is assigned to the group leader for the research topic area addressed in the
       proposal. Group leaders are NIST researchers who are responsible for coordinating
       research activities in their respective areas of technical expertise.

l      The group leader assigns a team of three reviewers to evaluate and score each proposal
       using the weighted evaluation criteria published in the notice.

l      The reviewers’ scores are averaged into a composite score for each proposal.

l      The group leader examines the scores and comments of the reviewers and, considering
       the overall program balance and objectives, makes a recommendation to the appropriate

                                                 -13-
U.S. Department of Commerce                                             Report No. DEN-10958-0-0001
Office of Inspector General                                                          September 2000



       division chief, who is the selecting official. The highest scoring proposal may not be
       recommended for funding because of NIST’s desire to broaden its research perspective.

In addition to NIST personnel, the Fire Research Grants program selected proposal reviewers
from a list of eight non-federal experts. Outside reviewers were selected by the respective group
leader responsible for the proposal. We commend NIST on its use of outside reviewers on the
Fire Research Grants program, thereby enhancing the independence and objectivity of the review
process.

B.     MSEL Grants

NIST received 18 proposals, requesting a total of approximately $1.2 million in federal funds, in
response to the MSEL grants solicitation notice, which was published in the Federal Register on
April 17, 1996. The proposal review process for the program, as described in the Federal
Register notice, involves the following phases:

l      The proposal is assigned to a panel of three reviewers who are knowledgeable about the
       specific scientific area covered by the proposal.

l      Each reviewer scores the proposal using the equally-weighted evaluation criteria
       published in the solicitation notice.

l      The reviewers’ scores are forwarded to the appropriate MSEL division chief, who makes
       the selection decisions based on the scores received and the compatibility of the proposal
       to the division’s mission. The highest scoring proposal may not be recommended for
       funding because of NIST’s desire to broaden its research perspective.

We found that all of the proposal evaluators for the MSEL grants competition were NIST
personnel. We believe that NIST could enhance the independence and objectivity of future
MSEL grants competitions by inviting reviewers from outside NIST and the Department to
participate. (See next section for a best practice suggestion on NIST’s use of “outside”
evaluators in its Precision Measurement Grants program.)

C.     Precision Measurement Grants

NIST received 25 abbreviated proposals, requesting a total of $1,250,000 in federal funds, in
response to the Precision Measurement grants solicitation notice, which was published in the
Federal Register on October 29, 1996. We found that NIST’s application review procedures for
the Precision Measurement Grants program allow the selecting official to also serve as a member
of the application review panel. We believe that the independence and objectivity of the
application review and selection processes are lessened when the selecting official has the ability
to influence the proposal review results by acting as a reviewer. NIST can resolve this issue by
revising the Precision Measurement Grants program review procedures to prevent the selecting


                                               -14-
U.S. Department of Commerce                                             Report No. DEN-10958-0-0001
Office of Inspector General                                                          September 2000



official from participating on proposal review panels. NIST could accomplish this by either
removing the selecting official from the review panels or by designating another official who is
not involved in the review process to serve as the selecting official.

The proposal review process for the program, as described in the Federal Register notice,
involves the following phases:

l      Applicants submit an abbreviated proposal of no more than five double-spaced pages.

l      The abbreviated proposals are distributed to a panel of eight reviewers, who evaluate each
       proposal based on the equally-weighted criteria published in the solicitation notice. The
       panel members individually rank the proposals and transmit their results to the program
       office by mail.

l      The panel members’ rankings are averaged into a composite ranking for each proposal.

l      NIST invites full proposals from the four to eight applicants whose abbreviated proposals
       had the best composite rankings. In the case of the fiscal year 1997 competition, NIST
       invited and received five full proposals.

l      The full proposals are reviewed and scored by the same panel of eight reviewers that
       evaluated the abbreviated proposals, using the same equally-weighted criteria published in
       the solicitation notice. The reviewers mail their results to the program office.

l      The Precision Measurement Grants program manager selects the two highest-scoring
       proposals for funding.

We found that the panel of eight reviewers included four NIST personnel and four non-federal
experts who were past winners of precision measurement grants. We commend NIST on its use
of outside reviewers on the Precision Measurement Grants program. However, we are concerned
that the program’s selection procedures permit the selecting official to participate on the proposal
review panels. DAO 203-26, Section 4.02h.1, establishes the minimum requirements for
competitive reviews under discretionary financial assistance programs. The DAO requires that
each application receive an independent and objective evaluation by one or more review panels
of at least three reviewers each. We believe that the independence and objectivity of the
application review and selection processes are lessened when the selecting official has the ability
to influence the proposal review results by acting as a reviewer. NIST can resolve this issue by
revising the Precision Measurement grant review procedures to prevent the selecting official from
participating on proposal review panels. NIST could accomplish this by either removing the
selecting official from the review panels or by designating another official who is not involved in
the review process to serve as the selecting official.




                                                -15-
U.S. Department of Commerce                                            Report No. DEN-10958-0-0001
Office of Inspector General                                                         September 2000



V.     Selection Practices Supported Merit-Based Decisions,
       But Independence of Process Could Be Improved

In fiscal year 1997, NIST selected six proposals under the Fire Research Grants program, four
proposals under the MSEL Grants program, and two proposals under the Precision Measurement
Grants program to receive funding. NIST followed written procedures in the selection of
recipients for the three sub-programs. The Federal Register notices for the Fire Research Grants
and MSEL Grants programs both stated that the division chiefs responsible for the particular area
of research covered by the proposals would be the selecting officials. The notice for the Precision
Measurement Grants program did not directly identify a selecting official. NIST internal program
guidance designates the Precision Measurement Grants program manager as the selecting official.

Each of the three sub-programs maintained adequate documentation on the proposal reviewers’
evaluations and finding recommendations to the selecting officials. We found that the
recommendations of the review panels were followed; in all cases, the projects selected for
funding were the highest scoring proposals. Each award decision contained evidence of approval
by a designated selecting official. Although we have concerns about the independence and
objectivity of the Precision Measurement grants review and selection procedures, we found no
evidence of impropriety in the 1997 selections.

Finally, it appears that in many, if not all, of the awards under the MSEL Grants program the
NIST personnel on proposal evaluation panels were within the supervisory chain of the selecting
official. NIST could enhance the independence of its selection process be ensuring that at least
one of the evaluation panel members is outside the supervisory control of the selecting official.

VI.    Award Renewal Procedures for Two Sub-Programs
       Are Calculated to Result in Merit-Based Funding Decisions

We found that the two other sub-programs—Fire Research Grants and Precision Measurement
Grants—have adequate procedures that are calculated to result in merit-based renewal decisions.
The Fire Research Grants program has separate renewal evaluation and approval processes for
one-year and multi-year projects. We found that all Precision Measurement Grants proposals are
submitted for three-year research periods, with second- and third-year funding at NIST’s
discretion. No Precision Measurement grants receive funding beyond the third year, so there is
no need for a separate renewal evaluation process for such awards. Our detailed findings are
discussed below.

A.     Fire Research Grants

The Fire Research Grants program issued 12 award renewals for a total of $866,877 during fiscal
year 1997. The renewals fell into two categories. Of the renewals, eight awards, totaling
$563,152, involved research that was originally proposed to NIST as multi-year projects.



                                               -16-
U.S. Department of Commerce                                            Report No. DEN-10958-0-0001
Office of Inspector General                                                         September 2000



For these multi-year projects, a NIST program manager reviews the ongoing research and advises
the respective division chief if the project is progressing satisfactorily. If the project is
progressing in accordance with the proposal originally approved by NIST, then renewal funding
is approved.

The second category of renewals—four awards, totaling $303,735—involved projects that were
originally proposed to NIST as single-year projects, but were producing important research that
the recipient wants to continue. These recipients were required to submit proposals for additional
funding. The renewal proposals then competed for funding with the 13 new proposals that were
submitted in response to the competitive solicitation notice.

Based upon our review, we concluded that NIST’s procedures for reviewing proposed renewals
of Fire Research grants were designed to result in merit-based renewal decisions and that NIST
followed these procedures for 1997 Fire Research grant renewals.

B.     Precision Measurement Grants

The Precision Measurement Grants program issued four award renewals for a total of $200,000
during fiscal year 1997. According to the Precision Measurement Grants program manager, each
proposal is initially submitted for a three-year federal funding period. First-year funding is
limited to $50,000, with two additional years possible at NIST’s discretion, based on satisfactory
performance and availability of funds. Second- and third-year funding is also limited to $50,000
annually.

Recipients are required to submit renewal proposals for second- and third-year funding. Based
on the progress of the project to date, the additional work proposed in the renewal request, and
availability of funds, the program manager determines whether to grant award renewals. In the
25-plus years of the Precision Measurement Grants program, the program manager can recall
only one instance when a renewal was not granted, and this was due to the recipient’s desire to
discontinue the project.

Based upon our review, we concluded that NIST’s procedures for reviewing proposed renewals
of Precision Measurement grants were designed to result in merit-based renewal decisions and
that NIST followed these procedures for the 1997 Precision Measurement grant renewals.

VII.   MSEL Grants Renewal Procedures
       May Treat New Proposals Unfairly

We found that NIST’s procedures for evaluating and approving requests for renewals of MSEL
grants do not distinguish between continuation of multi-year research projects and requests for
renewal funding beyond the originally-proposed research period. We are concerned that
recipients who have completed their initial research period and are seeking additional funds
receive an unfair advantage over new applicants who submitted proposals in response to a
competitive notice in the Federal Register.

                                               -17-
U.S. Department of Commerce                                               Report No. DEN-10958-0-0001
Office of Inspector General                                                            September 2000



The MSEL Grants program issued 18 award renewals for a total of $1,019,307 during fiscal year
1997. The program has a two-step process for evaluating recipients for renewal funding. First,
technical personnel within the laboratory review the research to date to assess its overall quality
and the extent to which the ongoing work meets the mission needs of the laboratory. After the
laboratory technical personnel determine that the work is of high quality and that the project
conforms with the laboratory’s mission, a second level of review is performed by the
laboratory’s senior management. In this second step, senior managers further analyze the value
of continuing the project, considering availability of resources, analysis of proposed costs, and
the qualifications and research portfolio of the recipient researchers.

DAO 203-26, Section 4.02h, requires that all proposals that are submitted in response to a
solicitation notice be treated fairly. To the extent that existing projects that are seeking additional
funds beyond their originally-proposed research period are given precedence over new proposals
and do not have to compete against the new proposals for funding, the process does not treat the
new proposals fairly. While we understand that it may be in the public’s interest to continue
funding promising projects beyond their proposed time period, we believe that such projects
should have to demonstrate their ongoing value by competing against new proposals that are
submitted in response to a published solicitation. Therefore, NIST should revise the process by
which it evaluates and approves existing MSEL projects for renewal funding by requiring
projects that have completed their originally-proposed research period to compete with all new
proposals for funding.

VIII. Majority of Awards Were Noncompetitive,
      Contrary to Departmental Policy

During fiscal year 1997, NIST issued 125 noncompetitive financial assistance awards and
amendments, involving about $17.6 million in federal funding. This represented 73.1 percent of
the discretionary award actions, and 86.3 percent of discretionary funding under CFDA No.
11.609. Of the 125 noncompetitive actions, 66 were new awards, involving approximately
$8.1 million in federal funds, including 3 awards of more than $1 million each. The remaining 59
noncompetitive actions were renewals or amendments to existing noncompetitive awards,
totaling $9.5 million in federal funding.

As previously stated, the use of competitive selection procedures is generally agreed to be the
most effective method of ensuring that financial assistance awards are made on the basis of merit.
DAO 203-26, Section 4.02h, establishes the departmental requirement for competitive review of
financial assistance applications, stating, “(Department of Commerce) discretionary grant
program awards shall be made on the basis of competitive review.” In addition to the
Department’s requirement for competitive review, one of the primary purposes of the Federal
Grant and Cooperative Agreement Act is to encourage competition in the award of federal
financial assistance to the maximum extent practicable in order to fairly and objectively identify
and fund, based on merit, the best possible projects proposed by applicants, and thereby more
effectively achieve program objectives. We believe that NIST’s extensive use of noncompetitive
award procedures conflicts with the departmental requirement and the objectives of the Federal
Grant and Cooperative Agreement Act.


                                                 -18-
U.S. Department of Commerce                                                   Report No. DEN-10958-0-0001
Office of Inspector General                                                                September 2000



A.      New noncompetitive awards

We discussed the processes by which the noncompetitive awards are initiated with personnel in
NIST’s Measurement and Standards Laboratories and reviewed the award files for the 66 new
noncompetitive awards issued in fiscal year 1997. We found that most of NIST’s organizational
units had at least one noncompetitive award in 1997. The following schedule summarizes the
number of awards by unit.

             Chemical Science and Technology Laboratory                  16
             Manufacturing Engineering Laboratory                        16
             Materials Science and Engineering Laboratory                13
             Physics Laboratory                                           6
             Building and Fire Research Laboratory                        5
             Information Technology Laboratory                            4
             Electronics and Electrical Engineering Laboratory            3
             Manufacturing Extension Partnership                          2
             Technology Services                                          1

             Total                                                       66

Based on our discussions with officials in several NIST organizational units, the following
describes the process by which NIST’s noncompetitive awards originate.

l       NIST receives an unsolicited proposal2 for research services, usually from a college or
        university researcher, but occasionally from non-academic research centers. The
        unsolicited proposals reportedly originate in one of three ways:

        1)    A NIST researcher finds a need for research services that cannot be met in-house
              due to staff and/or facility constraints. The researcher contacts a nonfederal
              colleague, describes the type of services needed, and suggests that the colleague
              submit a proposal.

        2)    A nonfederal researcher who is familiar with ongoing or planned research in a NIST
              laboratory submits a proposal for related or complementary research.

        3)    A nonfederal researcher who is seeking federal funding submits a proposal without
              prior knowledge of ongoing or planned NIST research.




        2
         DAO 203-26 defines Unsolicited Proposals to be, “Applications for financial assistance which
are not received as a result of a direct solicitation in the Federal Register, Commerce Business Daily, or
other publication.” All of NIST’s noncompetitive awards resulted from unsolicited proposals, based on
the DAO definition.

                                                   -19-
U.S. Department of Commerce                                              Report No. DEN-10958-0-0001
Office of Inspector General                                                           September 2000



l      If NIST determines that funding is available and the unsolicited proposal appears to be
       worthy of further consideration, some level of technical evaluation is performed within
       the NIST laboratory. We found that the level of detail in the technical evaluations varied
       among the awards. Some award files contain only a narrative evaluation by a single
       reviewer, while others contain numerical scores from up to three reviewers. The files for
       the three awards in excess of $1 million contained only narrative evaluations and did not
       state whether the evaluations were performed by a single reviewer or by a panel of at least
       three reviewers, as would be required for competitive reviews, pursuant to the DAO.

l      The NIST laboratory prepares a Justification for Other Than Full and Open
       Competition, stating that the proposed recipient is the only responsible source to perform
       the research and that no other type of property or services will satisfy NIST’s needs.
       NIST cites 41 U.S.C. §253(c)(1), which applies to procurement contracts, not financial
       assistance awards, as the statutory authority allowing it to make the award on a
       noncompetitive basis.

l      The Office of General Counsel reviews the proposed award package, including the sole
       source justification and proposed type of funding instrument. The Office of General
       Counsel may request clarification or revision of the package before approving the
       proposed award.

l      After approval by the Office of General Counsel, the package is forwarded to the NIST
       Grants Office, which issues a grant or cooperative agreement.

The Department recognizes that it is occasionally desirable to fund unsolicited proposals without
the benefit of competition. The requirements for funding unsolicited proposals are stated in DAO
203-26, Section 4.02i. The DAO states,

       “No unsolicited proposal may be funded outside the competitive process if that
       proposal is one which falls within the program goals of a competitive program. If
       outside the parameters of a competitive program, an unsolicited proposal must
       enhance the financial assistance objectives of the sponsoring organization unit.
       The decision to fund an unsolicited proposal must be fully justified and included
       in the official grant file.”

In addition, NIST has established requirements for funding noncompetitive financial assistance
awards in the NIST Administrative Manual, Subchapter 2.03, Appendix Q, “Grants and
Cooperative Agreements,” Section 4. NIST’s requirements include:

l      A sole-source justification that states the applicant’s unique qualifications to receive
       financial assistance.

l      Statement of the review/evaluation process used for selecting the project to be funded.

                                                -20-
U.S. Department of Commerce                                             Report No. DEN-10958-0-0001
Office of Inspector General                                                          September 2000



l      A certification that the proposed action falls outside the parameters of a competitive
       program.

l      A statement explaining how this proposed award enhances the objectives of the program.
       (In this context, we assume that NIST’s use of the word “program” means the NIST
       office requesting that the proposed award be funded.)

We have three major concerns with NIST’s noncompetitive financial assistance procedures and
practices. First, NIST should use competitive award procedures for financial assistance awards to
the maximum extent possible. Secondly, when it is desirable to fund an unsolicited proposal,
NIST’s procedures should provide for public notification of proposed sole-source awards as a
means to verify that no other responsible source for the property or services will satisfy NIST’s
needs. Finally, the research topics addressed in several of the proposals that NIST funded
noncompetitively appeared to fall within the scope of an existing competitive program, contrary
to the departmental policy that no unsolicited proposal may be funded if it falls within the
program goals of a competitive program.

i.     Competitive procedures were not used

Section 4.02h of DAO 203-26 requires the use of competitive review procedures in awarding
financial assistance. However, NIST issued 66 of the 78 new discretionary awards under CFDA
No. 11.609 noncompetitively. The decisions to issue the noncompetitive awards were made on
the basis of sole-source assertions by NIST laboratories and program offices.

DAO 203-26, Section 4.02h.1, establishes the minimum requirements for competitive reviews of
proposed financial assistance awards. The minimum requirements include:

l      An application is reviewed only when it is received in response to a notice in the Federal
       Register or other publication.

l      Applications are treated fairly under the review process.

l      Each application receives an independent, objective review by one or more review panels.

l      There are at least three members on each review panel. Review panels may include
       members who are not federal employees.

l      Each review panel uses the selection criteria that were published in the solicitation notice.

l      After the review panel(s) have evaluated the applications, the organization unit prepares a
       rank ordering, based solely on the evaluations of the panel(s).




                                                -21-
U.S. Department of Commerce                                             Report No. DEN-10958-0-0001
Office of Inspector General                                                          September 2000



l      The organization unit determines the order in which applications will be funded, based on
       (i) any priorities or other program requirements that were published in the solicitation
       notice, and (ii) the rank order established by the review panel scores.

Previously, we listed the three ways that unsolicited proposals reportedly originate:

(1)    NIST identifies a research need that it cannot address with in-house resources and
       contacts a nonfederal researcher to suggest that he or she submit a proposal.

(2)    An outside researcher familiar with ongoing or planned NIST research submits a
       complimentary proposal.

(3)    An outside researcher with no knowledge of ongoing or planned research submits a
       proposal that he or she thinks will be of interest to NIST.

Certainly in the first case, and likely in the second, NIST has sufficient knowledge of its research
needs and resources to allow public solicitation for research services. Therefore, we believe that
NIST should utilize the procedures outlined in DAO 203-26, Section 4.02h.1, for proposed
financial assistance awards in all cases where its research needs and resources are known prior to
receipt of applications.

ii.    Sole source claims were not verified

While the general requirement calls for competitive review of proposed financial assistance
actions, the Department recognizes that there are instances in which it is desirable to fund
unsolicited proposals. The Department’s requirements for issuing awards on unsolicited
proposals are contained in DAO 203-26, Section 4.02i. The DAO provides that unsolicited
proposals may be funded only when (i) the proposal falls outside the goals of a competitive
program, (ii) the proposal enhances the financial assistance objectives of the sponsoring
organization unit, and (iii) the decision to fund the proposal is fully justified and documented in
the award file. NIST augmented the Department’s minimum requirements for noncompetitive
financial assistance awards by publishing its own requirements in Appendix Q of the NIST
Administrative Manual. In addition to the three departmental requirements, NIST requires a sole-
source justification for all noncompetitive awards. NIST also expanded the requirement that no
noncompetitive award can fall within the goals of a competitive program to include planned, as
well as current, competitive programs.

Our examination of the noncompetitive awards issued in 1997 disclosed that NIST’s Grants
Office did not take adequate steps to verify sole-source assertions made by the sponsoring
laboratory or program office. DAO 203-26, Section 4.04a.4, makes it the responsibility of the
grants officer to ensure that preaward administrative activities were followed, including ensuring
that competitive proposal review procedures were followed. We believe that this responsibility


                                                -22-
U.S. Department of Commerce                                             Report No. DEN-10958-0-0001
Office of Inspector General                                                          September 2000



extends to verifying sole-source assertions. This verification should include a public notification
to verify that there is only one source of property or services that would satisfy the government’s
needs. At a minimum, NIST should publish a preaward notice in the Federal Register stating
that the agency expects to make a sole-source award and inviting other interested and qualified
parties to inquire. NIST should review the original proposal, and any additional proposals
submitted in response to the Federal Register notice, in accordance with the independent review
procedures established by DAO 203-26, Section 4.02h, which include a requirement that each
proposal be reviewed by a minimum of three independent reviewers. To maximize independence
and objectivity, NIST should invite experts from outside NIST and the Department to participate
on review panels.

iii.   Some noncompetitive awards appear to fall within
       the parameters of a competitive program

NIST issued four new MSEL Grants program awards in fiscal year 1997, based on a competitive
solicitation published in April 1996. MSEL also funded 13 unsolicited proposals on a
noncompetitive, sole-source basis in fiscal year 1997. We found several instances where the
research topics addressed in the unsolicited proposals appeared to fall within the scope of the
published objectives of the competitive program, which did not comply with the requirements for
funding unsolicited proposals, as stated in DAO 203-26, Section 4.02i. The competitive
program’s objectives were written broadly to encompass several research areas within MSEL’s
divisions. The following examples illustrate the apparent duplications.

Example A

One of the objectives of the competitive MSEL Grants program, as stated in the April 1996
Federal Register notice, is “to support (Polymer) Division programs in polymer blends,
composites, electrical applications and dental polymeric materials through participation in
research on synthesis, processing and characterization of structure, and mechanical and electrical
properties.” Writing in support of an unsolicited proposal submitted by the University of
Connecticut, a NIST researcher stated, “This proposed work will contribute to the NIST program
in polymer blends and processing research.” The description parallels a portion of the broadly-
stated objectives in the competitive program solicitation. We also noted that the sole-source
justification for this unsolicited proposal did not contain the required statement that the proposed
award falls outside the parameters of a competitive program. In spite of these deficiencies, the
proposed award was approved and funded (award No. 70NANB7H0060).

Example B

The stated purpose of a grant to the New York State College of Ceramics at Alfred University
(award No. 60NANB7D0064) was to fund the applicant’s participation in NIST’s Ceramic
Processing Characterization Consortium. The Procurement Requisition (Form CD-435) stated
that the scope of work of the proposed project “is a collaborative program between NIST and

                                                -23-
U.S. Department of Commerce                                              Report No. DEN-10958-0-0001
Office of Inspector General                                                           September 2000



Alfred University for developing new strategies and techniques to strengthen the ceramic
processing characterization infrastructure within the U.S.” The April 1996 Federal Register
notice for the competitive MSEL Grants program stated that the program’s objectives included,
“to supplement the (Ceramics) Division activities in the area of ceramic processing, tribology,
composites, machining, interfacial chemistry, and microstructural analysis.” Again, the scope of
the unsolicited proposal parallels the broadly-stated objectives of the competitive program. Also,
as in the previous example, the sole-source justification did not contain the required statement
that the proposed award falls outside the parameters of a competitive program. In spite of the
apparent parallels between the proposal and the goals of the competitive program, and the lack of
the required certification, the Office of General Counsel found that “The sole source justification
is adequate.”

Example C

The title of an unsolicited proposal submitted by the University of Maryland at College Park
(award No. 70NANB7H0055) was “High Resolution Cold Neutron Spectroscopy and Scattering
for Applications in Materials Science and Chemical Physics.” This research appeared to closely
parallel an objective of the competitive MSEL Grants program, which is “to develop high
resolution cold and thermal neutron research approaches and related physics, chemistry,
macromolecular and materials applications.” Although the unsolicited proposal appears to track
very closely with the competitive program’s objectives, NIST’s sole-source justification states,
“(C)learly this proposal does not fall within the program goals of a competitive program because
of the unique nature of the scientific and engineering skills required and available (in this country)
only at the University of Maryland.” While the unsolicited proposal may relate to a specific area
of research, it appears that the proposed project does in fact fall within the broadly-stated
objective of the competitive program and is therefore questionable as to whether it should have
been awarded noncompetitively.

B.     Noncompetitive amendments

In addition to the 66 new noncompetitive awards, NIST issued 59 amendments to existing
noncompetitive awards in 1997. The total federal share of the 59 noncompetitive amendments
was $9.1 million. Our review disclosed that NIST does not have written procedures for assessing
existing award recipients for “continued” funding. Each of the 59 noncompetitive award
amendments that NIST issued in fiscal year 1997 involved a unique project, rather than a specific
program, and we did not individually examine the bases for NIST’s decisions. We believe that
NIST should establish minimum review standards to guide technical personnel in assessing a
noncompetitive project’s worthiness for continued funding and whether any continued funding
should be provided on a noncompetitive basis. These standards will help bring consistency to
NIST’s noncompetitive award renewals and provide a means for it to document that renewals are
merit-based.




                                                -24-
U.S. Department of Commerce                                            Report No. DEN-10958-0-0001
Office of Inspector General                                                         September 2000



IX.    Recommendations

We recommend that the Director, NIST, ensure that the agency:

1.     Complies with the minimum departmental requirements, as stated in Financial
       Assistance Notice No. 17, Section .03b.7(f), for Fire Research Grants and MSEL
       Grants program solicitation notices by identifying only one type of proposed
       funding instrument in the notices.

2.     Notifies applicants for MSEL grants that proposals for multi-year projects will be
       accepted and evaluated, with funding beyond one year at NIST’s discretion,
       subject to satisfactory performance, continued research needs, and availability of
       funds.

3.     Enhances the independence of future MSEL Grants application reviews by
       ensuring that at least one proposal review panel member is outside the supervisory
       chain of the selecting official and that participants from outside NIST and the
       Department are invited to serve as proposal reviewers.

4.     Revises the selection procedures to preclude the selecting official from
       participating on proposal review panels.

5.     Provides fair treatment to all MSEL Grants applicants by requiring grantees that
       are seeking additional funding beyond their originally-proposed research period to
       compete for funding with all new MSEL Grants program applications.

6.     Utilizes competitive review procedures for discretionary financial assistance
       awards, to the maximum extent possible, in accordance with Section 4.02h of
       DAO 203-26.

7.     Publicly announces in the Federal Register its intention to make each sole-source
       award, requests proposals from interested parties, evaluates any applications
       submitted, and makes a final selection in accordance with DAO 203-26, Section
       4.02h.

8.     Ensures that NIST Grants Office reviews of proposed sole-source awards include
       procedures designed to objectively determine compliance with Department and
       NIST competitive requirements.

9.     Closely examines proposed funding of unsolicited proposals to ensure that they
       do not fall within the program goals of any existing or planned competitive
       program, as required by Section 4.02i of DAO-203-26.


                                               -25-
U.S. Department of Commerce                                            Report No. DEN-10958-0-0001
Office of Inspector General                                                         September 2000



10.    Develops minimum standards to guide technical personnel in reviewing requests
       for renewal of sole-source awards and, if renewal is warranted, if it should be done
       on a noncompetitive basis.

NIST's Response to the Draft Audit Report

In response to the draft audit report, NIST agreed to implement seven of the ten
recommendations. NIST agreed to:

l      notify applicants for MSEL grants that proposals for multi-year projects will be accepted
       and evaluated, with funding beyond one year at NIST’s discretion, subject to satisfactory
       performance, continued research needs, and availability of funds,

l      revise the selection procedures to preclude, whenever possible, the selecting official from
       participating on proposal review panels,

l      require grantees that are seeking additional funding beyond their originally-proposed
       research period to compete for funding with all new MSEL Grants program applications,

l      utilize competitive review procedures for discretionary financial assistance awards, to the
       maximum extent possible,

l      develop procedures to assist the Grants Office in determining compliance with
       Department and NIST competitive requirements,

l      closely examine proposed funding of unsolicited proposals to ensure that they do not fall
       within the program goals of any existing or planned competitive program, and

l      develop minimum standards to guide technical personnel in reviewing requests for
       renewal of sole-source awards and, if renewal is warranted, if it should be done on a
       noncompetitive basis.

NIST disagreed with the draft audit report recommendation to ensure that future Fire Research
Grants and MSEL Grants program solicitation notices mention only one type of funding
instrument on the basis that such practice, while stated as a preference in Financial Assistance
Notice No. 17, is not required by federal law or government-wide policy. NIST's response stated
that many other federal agencies solicit both grants and cooperative agreements in a single
Federal Register notice. Furthermore, NIST pointed out that all Federal Register notices were
examined by the Department's Office of Executive Assistance Management and Office of
General Counsel prior to publication and neither office objected to soliciting two type of funding
instruments in a single notice. NIST also stated that the draft version of the forthcoming
Department-wide Grants Administration Manual allows agencies to solicit both grants and
cooperative agreements in a single notice, if they so choose.

                                               -26-
U.S. Department of Commerce                                               Report No. DEN-10958-0-0001
Office of Inspector General                                                            September 2000



NIST disagreed with the draft report recommendation to ensure that at least one proposal
evaluator under the MSEL Grants program be outside the supervisory chain of the selecting
official. (NIST did not disagree with the remainder of the recommendation to invite
participants from outside NIST and the Department to serve as proposal reviewers.) NIST's
response stated that current departmental policies do not require that review panel members be
outside the supervisory chain of the selecting official.

NIST also disagreed with the draft report recommendation to publicly announce in the Federal
Register its intention to make each sole-source award, request proposals from interested parties,
evaluate any applications submitted, and make a final selection in accordance with DAO 203-26,
Section 4.02h. NIST's response stated that there is no departmental policy that requires
publication of a notice of intent to make a sole-source or noncompetitive award. NIST's response
did note that discussions were underway within the Department regarding whether it would be
advisable to publish notices of intent to award sole-source awards. NIST's preference is to await
the outcome of these discussions and then implement any new departmental policy that follows.

In addition to responding directly to each of the ten draft report recommendations, NIST's
response contained comments on several items in the text of the draft report. NIST objected to
the report's use of the phrase “conflict of interest” to describe the result of allowing the selecting
official to serve as a review panel member under the Precision Measurement Grants program.
NIST stated that any inadvertent use of the selecting official as a reviewer was done solely to add
knowledge, experience, and expertise to reviews of highly complex applications. NIST also
stated that it interpreted departmental policies as leaving it to the agency's discretion to determine
whether a review panel, which includes a selecting official, is independent.

NIST also objected to the draft report's assertion that DAO 203-26, Section 4.02h requires NIST
to state that proposed sole-source recipients are the only responsible source that could
accomplish the work and no other property or services would satisfy the government's needs.
NIST's response pointed out that these are requirements for procurement actions and do not
directly apply to financial assistance awards. NIST interpreted the DAO to leave it to the
discretion of the Grants Officer to determine what constitutes adequate justification for a sole-
source award.

NIST suggested that we delete the draft report's reference to a deficiency in the solicitation notice
for the MSEL Grants program because the deficiency had been corrected prior to issuance of the
draft audit report.

Finally, NIST's response pointed out a missing word in the text of the draft report.




                                                 -27-
U.S. Department of Commerce                                             Report No. DEN-10958-0-0001
Office of Inspector General                                                          September 2000



OIG's Comments on NIST's Response

We do not agree with NIST's rationale for rejecting our recommendation to mention only one
type of funding instrument in solicitation notices for discretionary financial assistance programs.
While NIST's assertion that such practice is not required under federal law or government-wide
policy may be accurate, the fact remains that it is the policy of the Department of Commerce, as
stated in Financial Assistance Notice No. 17, to solicit for only one type of funding instrument in
each Federal Register notice. The transmittal memorandum for the Financial Assistance Notice,
which lists the Chief of NIST's Acquisition and Assistance Division as an addressee, states,
“These guidelines provide updated policies and minimal requirements for the preparation of
(Federal Register) notices.” Section .03b.7 of the Financial Assistance Notice, titled
“Supplementary Information,” states, “At a minimum, the following items must be included in
this section ...” (Emphasis added.) The requirement that only one type of proposed funding
instrument be identified in the notice appears as item (f) within this section. Moreover, it is
clearly a “best practice” that facilitates the solicitation and application processes.

With respect to our recommendation to ensure that at least one proposal evaluator be outside the
supervisory chain of the selecting official, we do not dispute NIST's assertion that this is not a
requirement under the minimum departmental requirements for competitive review. Our
recommendation–a recognized “best practice”–was intended to enhance the independence and
objectivity of MSEL Grants program competitive reviews by establishing procedures that exceed
the minimum requirements of the Department. While we found no evidence that MSEL Grants
selecting officials directed, or attempted to direct, reviewers to score proposals in a certain
manner, we believe the independence of the review process is enhanced when the selecting
official has as little influence as possible over the reviewers. Therefore, we reaffirm our
recommendation that at least one proposal evaluator be outside the supervisory chain of the
selecting official.

As explained in the body of the report, we found that, while NIST's policies require assertions
that a proposed sole-source award recipient is the only responsible party that could accomplish
the work and that no other property or services would meet the government's needs, there is no
requirement that these assertions be verified. Our recommendation to publicly announce NIST's
intention to make sole-source awards provides one possible means for such verification. If
NIST's assertion that there is only one responsible source is accurate, then no additional
proposals will be submitted and NIST can proceed with the processing of the proposed sole-
source award. If, on the other hand, there are other responsible parties who could satisfy NIST's
needs, then the benefits are threefold. First, NIST can competitively select, based on merit, the
best technical and cost efficient proposal. Second, those additional individuals or organizations
that submit proposals will expand NIST's pool of potential sources for future program needs.
Third, qualified sources that would have been excluded from consideration because they were
not aware that NIST had a need they could satisfy would have a chance to compete for public
funding. This last benefit could ultimately lead to new scientific approaches that might never
have been developed if NIST had made a sole-source award to another party under its existing
procedures.

                                               -28-
U.S. Department of Commerce                                             Report No. DEN-10958-0-0001
Office of Inspector General                                                          September 2000



While departmental policies do not explicitly require public notification of planned sole-source
awards, we believe that there are significant benefits associated with exceeding the minimum
requirements of the Department. Accordingly, we reaffirm our recommendation that NIST
publicly announce in the Federal Register its intention to make each sole-source award, request
proposals from interested parties, evaluate any applications submitted, and make a final selection
in accordance with DAO 203-26, Section 4.02h.

After examining NIST's response to the draft audit report, we amended the language in the final
report to remove the words “conflict of interest” from the section dealing with the Precision
Measurement Grants program selecting official serving as a proposal evaluator. We did note that
NIST agreed to exclude selecting officials from proposal review panels “whenever possible.”

Contrary to the statement in NIST's response, the draft report did not assert that DAO 203-26,
Section 4.02h requires NIST to state that proposed sole-source recipients are the only responsible
source that could accomplish the work and no other property or services would satisfy the
government's needs. The only reference to DAO 203-26, Section 4.02h in the paragraph cited by
NIST is in the context of following the DAO's competitive review procedures when evaluating
proposals submitted in response to a public notification of intent to make a sole-source award.
NIST is correct that the sole-source justification language has its roots in procurement law, but it
is important to note that NIST chose to use the sole-source justification contained in 41 U.S.C.,
Section 253(c)(1) as its basis for justifying sole-source financial assistance awards.

NIST's response also stated that it should be left to the Grants Officer's discretion to determine
whether a sole-source assertion provides adequate justification for a noncompetitive award.
Since competitive review is the Department's preferred method for awarding financial assistance
(refer to DAO 203-26, Section 4.02h), and noncompetitive awards represent a deviation from the
preferred method, we believe that the Grants Officer has a duty to verify the sole-source assertion
that serves as the justification for this deviation.

The draft report mentioned NIST's correction of a deficiency in the MSEL solicitation notice for
the purpose of commending NIST on its actions, not to point out another deficiency in NIST's
practices. As such, we amended the language in the final report to clarify our purpose.

We amended the text of the final report to include a missing word, as suggested by NIST.

Finally, we believe that the transmittal letter of NIST's response to the draft audit report
mischaracterized the findings of our audit. The transmittal stated, “We are gratified that the OIG
auditors found that the three NIST programs under CFDA Program Number 11.609 adhered to or
exceeded all NIST and Departmental competition requirements.” A better summary of our
findings, as stated in the report, is “NIST's procedures and practices ... generally complied with
applicable statutory, departmental, and NIST requirements, although we found room for
improvement.”




                                                -29-
